,.No.

IN THE
SUPREME COURT OF THE UNITED STATES

ASTARTE DAVIS
Petitioner
vs.
MOLLY C. DWYER, Clerk, UNITED STATES COURT OF APPEALS
RICHARD SEEBORG, Judge, UNITED STATES DISTRICT COURT
LAUREL BEELER, MAGISTRATE JUDGE, UNITED STATES DISTRICT COURT
Respondents

PROOF OF SERVICE

I, Astarte Davis, In Pro Se do declare that on this date March 26, 2021, as
required by Supreme Court Rule 29 I have served the enclosed PETITION FOR WRIT
OF CERTIORARI IN THE SUPREME COURT OF THE UNITED STATES on each
party to the above proceeding as required to be served, by depositing an enveloper
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid.
The names and addresses of those served are as follows:

Laurel Beeler, Magistrate Judge
U.S. District Court
450 Golden Gate Ave
San Francisco, CA 94102
Molly C. Dwyer, Clerk
U.S. Court of Appeals for the Ninth Circuit
P.O. Box 193939
San Francisco, CA 94119-3939
Richard Seeborg, Judge
U.S. District Court
450 Golden Gate Ave
San Francisco, CA 94102
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 19, 2021
\

\ MkL

'1

. .

\^lktake Davis, petitioner in pro se
V \
PO Box 306
Gualala, CA 95445
727-785-3580
astartedavis@hotmail. com

